<html>
<title> - SERGEANT ANDREW TAHMOORESSI: OUR MARINE IN MEXICAN CUSTODY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
                     SERGEANT ANDREW TAHMOORESSI: 
                     OUR MARINE IN MEXICAN CUSTODY

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 1, 2014

                               __________

                           Serial No. 113-236

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
 
 
                         U.S. GOVERNMENT PUBLISHING OFFICE
90-725PDF                     WASHINGTON : 2015                         
                                 
 ______________________________________________________________________________________                                
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0c6b7c634c6f797f786469607c226f636122">[email&#160;protected]</a>  

                                
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida<greek-l>
LUKE MESSER, Indiana--resigned 5/
    20/14 noon deg.
SEAN DUFFY, Wisconsin<greek-l>--
    added 5/29/14 noon deg.
CURT CLAWSON, Florida<greek-l>--
    added 7/9/14 noon deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                     MATT SALMON, Arizona, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ENI F.H. FALEOMAVAEGA, American 
JEFF DUNCAN, South Carolina              Samoa
RON DeSANTIS, Florida<greek-l>       THEODORE E. DEUTCH, Florida
TREY RADEL, Florida--resigned 1/27/  ALAN GRAYSON, Florida
    14 deg.
SEAN DUFFY, Wisconsin<greek-l>--5/
    30/14 noon deg.
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mrs. Jill Tahmooressi (mother of Sergeant Andrew Tahmooressi)....     7
Lieutenant Commander Montel B. Williams, USN, Retired (veterans 
  advocate)......................................................    13
Sergeant Robert Buchanan, USMC, Retired (served with Sergeant 
  Tahmooressi in Afghanistan)....................................    20
Mr. Pete Hegseth, chief executive officer, Concerned Veterans for 
  America........................................................    23

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mrs. Jill Tahmooressi: Prepared statement........................    10
Lieutenant Commander Montel B. Williams, USN, Retired: Prepared 
  statement......................................................    15
Sergeant Robert Buchanan, USMC, Retired: Prepared statement......    22
Mr. Pete Hegseth: Prepared statement.............................    25

                                APPENDIX

Hearing notice...................................................    50
Hearing minutes..................................................    51
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida:
  Prepared statement.............................................    52
  Letter from Jon and Olivia Hammar..............................    54
The Honorable Tom Marino, a Representative in Congress from the 
  Commonwealth of Pennsylvania: Letter to His Excellency Eduardo 
  Medina Mora, Ambassador of Mexico to the United States of 
  America........................................................    56
The Honorable Juan Vargas, a Representative in Congress from the 
  State of California: Prepared statement........................    57


                     SERGEANT ANDREW TAHMOORESSI: 
                     OUR MARINE IN MEXICAN CUSTODY

                              ----------                              


                       WEDNESDAY, OCTOBER 1, 2014

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 2171, Rayburn House Office Building, Hon. Matt Salmon 
(chairman of the subcommittee) presiding.
    Mr. Salmon. A quorum being present, this subcommittee will 
come to order.
    We are going to limit the opening statements to myself, the 
ranking member and the chairman of the full committee; members 
will then be given ample time to ask questions, and if we have 
time for a second round of questions, then we will do so.
    I would like to start by recognizing myself and present my 
opening statement.
    Without objection, the members of the subcommittee can 
submit their opening remarks for the record. And now I yield 
myself as much time as I may consume to present my opening 
remarks.
    Welcome everyone to this very, very important hearing on 
Major--excuse me, Marine Sergeant Andrew Tahmooressi, our 
Marine in custody in Mexico.
    I want to thank Chairman Royce and all my colleagues who 
have come back to Washington to take place in this hearing. 
This is a busy time, when members are campaigning in their 
districts, the election just a few short weeks away, and the 
fact that so many members have come back for this hearing 
attests to the fact that this is an extremely important issue 
that we want to resolve as quickly as possible.
    And I want to thank our witnesses, particularly Mrs. 
Tahmooressi, who has been steadfast and strong in her 
advocating for her son.
    Montel Williams and Pete Hegseth, your work on behalf of 
veterans is noble and important, and it is a pleasure to have 
you speaking on behalf of Andrew.
    And finally, Retired Marine Sergeant Robert Buchanan, who 
served with Andrew in Afghanistan, from the bottom of our 
hearts, we appreciate your great service and we appreciate the 
fact that you are here appearing on behalf of your good friend, 
and I would like to thank you personally for your wonderful 
service to our Nation.
    Not long after the VA scandal story broke in my home town 
of Phoenix exposing widespread mismanagement of veteran care on 
the part of the Veteran Affairs, I first traveled down to 
Tijuana to visit Sergeant Tahmooressi in prison. I had been 
following his story, how he had served with distinction in the 
U.S. Marine Corps on the battlefields of Afghanistan; returning 
home to the United States with physical and the psychological 
scars of war, he made his way to southern California, where he 
was diagnosed with PTSD, living mostly out of his truck, where 
he carried all of his belongings, including his three 
registered guns; and how he got turned around and found himself 
at the Mexican border, where it is illegal to carry guns.
    By the time I had visited Andrew back in late May and again 
in June with Chairman Royce, he had been through a lot, 
attempted to escape and take his own life, haunted by the 
hypervigilance that is the hallmark of his PTSD. Even so, he 
was polite, he was soft-spoken, a brave American who had 
defended this country and now needed our help to return home.
    Here is an interesting anecdote. On my way back from 
visiting Andrew the first time, just as I was crossing the 
border back into the United States, I heard on the news the 
Obama administration had negotiated with the Taliban for the 
release of Army Sergeant Bergdahl.
    Sergeant Tahmooressi's circumstances are obviously very 
different than Sergeant Bergdahl's, but it still struck me 
then, as it does now, that Sergeant Tahmooressi had served his 
country with honor twice in Afghanistan, and now he finds 
himself in a Mexican prison after getting turned around and 
crossing the border. I am mystified that President Obama 
couldn't find time between negotiating with terrorists to call 
our ally, the Mexican President, to appeal to him on behalf of 
our Marine.
    If we in Congress don't do everything in our power to try 
to get Sergeant Tahmooressi, an injured war hero, back to the 
States for treatment, then what are we doing here? Making sure 
that our combat veterans are taken care of when they return is 
one of our most honored and sacred obligations.
    As chairman of this subcommittee, I have been consistently 
supportive of our bilateral relationship with Mexico, committed 
to our security partnership and to helping Mexico reform and 
improve its justice system. Our commercial relationship with 
Mexico is strong and is vital.
    Today I feel the same way. I am optimistic about Mexico's 
energy reforms, the growth of its middle class, and the 
increasingly close trade and diplomatic relationship that we 
share, but our significant and growing bilateral cooperation 
must also come with the ability to resolve important issues, 
particularly along our shared border.
    I firmly believe that Sergeant Tahmooressi meant no harm or 
willfully violated Mexican law when he crossed the border. And 
when I talked on several occasions with the Ambassador from 
Mexico, who by the way has been the Attorney General of Mexico 
in the past, he echoed to me the same thing, that he didn't 
believe that Sergeant Tahmooressi had any evil intentions with 
those weapons in his car.
    Now, he has spent over 6 months in prison for what amounts 
to a wrong turn. I am disappointed that more could not be done 
to address this situation in a far more timely manner. The fact 
is that Mexican citizens violate U.S. law on a regular and 
continuing basis, illegally crossing our southern border. 
Mexican officials respond by asking the U.S. for compassion and 
amnesty for their citizens to remain in the U.S., but frankly, 
compassion goes both ways. Mexico does not have the ability to 
provide Sergeant Tahmooressi with the care that he needs. Our 
war hero needs to come home.
    Last week I spoke with the Mexican Attorney General, who 
explained that while Sergeant Tahmooressi had broken Mexican 
law by approaching the border with weapons, his combat-related 
PTSD could not be adequately treated in Mexico. The good news 
is the Attorney General explained to me and, I understand, 
Chairman Royce separately that he has the authority within 
Mexican law to dismiss Sergeant Tahmooressi's case on 
humanitarian grounds once he has expert testimony that verifies 
his combat-specific PTSD diagnosis.
    Chairman Royce and I obtained the appropriate expert 
medical reports and forwarded them to the Mexican Attorney 
General's desk this past Friday. In addition, at the court 
hearing yesterday, a Mexican psychologist submitted his 
official diagnosis confirming Andrew's PTSD.
    Now, with all the information available to him, I am 
confident, I am hopeful that Attorney General Murillo Karam 
will do the right thing and very soon order the release of 
Andrew so he can begin his treatment and move forward with his 
life back home with his family and his friends.
    Once again, we are asking our men and our women in uniform 
to embark on the mission of fighting on behalf of our Nation in 
our war against the terrorist organization ISIS. Making sure 
that Sergeant Tahmooressi is brought home and provided the 
treatment that he so desperately needs will send a message and 
demonstrate to our military men and women, who are in harm's 
way, that America stands up for our soldiers and our Marines. 
That is how it should be.
    I look forward to hearing from all the witnesses, and I 
thank you for being here.
    And I now yield to Ms. Gabbard, the ranking member.
    Ms. Gabbard. Thank you very much, Mr. Chairman, for holding 
this important hearing.
    And most importantly, thank you to our witnesses today for 
taking your time to come and allow us the opportunity to hear 
directly from you and to allow us the opportunity to elevate 
your story and Sergeant Tahmooressi's challenges to the 
American people.
    Mrs. Tahmooressi, your story, what you and your family have 
gone through, and more importantly what your son is going 
through is incredibly heartbreaking. I have never met you 
before, I have never met your son, but hearing your story, 
hearing the story from those of you who have served with him, 
he is our brother, he is part of our family, part of the family 
of those who have worn the uniform from whatever branch of 
service and who have gone through that fight together, and to 
see what he is facing now, one of our own, is unimaginable upon 
coming home.
    When we serve overseas, the one bright light that we have 
is the fact that we can come home and that we come home to our 
loved ones and we come home to some sense of normalcy. And to 
see now what he is going through, to not have that bright 
light, is despicable and unimaginable.
    There is no question that our Government needs to do 
whatever it takes to support Sergeant Tahmooressi as he seeks 
justice and freedom in Mexico, and there is no question that 
the State Department must make this a priority. While we hope 
that the Mexican court and the Mexican Government will do the 
right thing and recognize that this case must be dismissed as 
soon as possible, the reason why we are here is because we know 
and understand that we cannot let up, that action is necessary, 
and we have to continue to apply that pressure to force that 
action and to bring him home.
    I want to thank each of you for coming today, for your 
championing Sergeant Tahmooressi and his freedom, and 
continuing to push for this action and being his voice in his 
absence.
    I thank you all for being here and look forward to hearing 
from you.
    Thank you.
    Mr. Salmon. I thank the gentlewoman.
    The Chair now recognizes the chairman of the full 
committee, Mr. Royce.
    Mr. Royce. Well, thank you Subcommittee Chairman Matt 
Salmon for your work on this issue, for holding this hearing.
    Matt Salmon and I had an opportunity to go down and talk to 
Sergeant Andrew Tahmooressi in his cell. And I do want to 
share, Jill, I want to share with the Sergeant's mother an 
observation that I think that Sergeant Buchanan was absolutely 
right when he said this was one of the most impressive young 
men he had served with. He is a very, very fine young man. And 
he has been through a lot.
    I think this committee has played a role historically in 
trying to make certain that in foreign policy, we look after 
the interests of those men and women who have served this 
country, and in this particular case, a young man who made a 
wrong turn and has now found himself 6 months, 6 months after 
his diagnosis, in this situation.
    Now, Matt and I had approached the Government of Mexico on 
several occasions, and one of the things you had us do was to 
try to get him moved from the prison in Tijuana, and he is now 
in Tecate, and in a much better place, I must say, and he 
expressed that.
    And we are respectful of our relationship with Mexico, but 
it has been 6 months. And I now feel in our discussions, which 
we have had in the past with the Ambassador, with the Foreign 
Minister, but now over the phone last Thursday, I had a long 
discussion with the Attorney General, and with the case, with 
the argument that I think we are making and making here today, 
the argument that he cannot get PTSD treatment, but less than 
10 days before he was taken into custody, he was diagnosed with 
just that diagnosis.
    And as the Attorney General has shared with us, it is 
within his ability to make a decision based on humanitarian 
grounds if the diagnosis shows that this in fact was the case. 
And we sent him that diagnosis, and we have sent him 
subsequently the diagnosis also that we have now from the 
doctor in Mexico.
    I think that, as Matt has raised this point, it is 
important to consider, since we have raised this with the State 
Department, our Government took steps to have one soldier 
released in exchange for five senior Taliban leaders, five 
senior Taliban leaders who had all committed serious offenses, 
war crimes. All five would be hauled up in front of the Hague 
for crimes against humanity based upon the terror that they 
visited on Afghan and U.S. forces. All five were determined to 
be a serious danger to the United States, and yet at the end of 
the day, those five, with close ties to Osama Bin Laden and to 
Mullah Omar and to the Haqqani terrorist network, have all 
found their way out of custody.
    The question is, what steps has the Government taken in 
order to ensure the release of this young Marine?
    And that brings us to why we are having the hearing today. 
And as Members of Congress, we must see to it that U.S. 
servicemen and servicewomen, who are put in harm's way to 
defend our country, are properly cared for when they return 
back here to the United States, when they are injured, as 
Andrew was injured, by a grenade.
    Mrs. Tahmooressi, I am pleased, I must say, that you are 
with us today. And I am equally pleased that we have with us a 
brave Marine who served two tours, combat tours, in 
Afghanistan, your son did this, Jill, and we talked a little 
bit with him about his service, but during his time when he was 
deployed in Helmand Province with the 2nd Battalion, 6th Marine 
regiment, he received a combat meritorious promotion, a 
battlefield promotion under meritorious conditions. Now, this 
speaks to his valor and to his love of country.
    And to discuss his service, it is an honor to have Robert 
Buchanan with us today. I met Robert at my office back some 
months ago when he came to talk to me about his comrade and 
about the effort he was undertaking, along with you, Jill, in 
order to secure his release. And he served with your son and 
said, as I indicated to you, that not only was he a fine young 
man, he also told me he was one of the bravest young men he had 
served with.
    And I must admit here too that Robert has been very brave 
himself and earned the Purple Heart after sustaining injuries 
himself from an IED explosion. And we want to thank him and 
others for traveling all the way here to Washington.
    And, as many of you know, these physical injuries as a 
result of that IED attack that Andrew sustained lead at times 
to psychological difficulties that we call PTSD, and the fact 
that the San Diego Veterans Affairs Hospital diagnosed him less 
than 10 days prior to this event on the border and the fact 
that it results in hypervigilance and memory and cognition 
lapses and depression, the fact that he will not be able to 
receive treatment in Mexico, and so this has been--the 
treatment has been prolonged by 6 months.
    It is because of this that I, together with Congressman 
Salmon, have pressed this case with the Attorney General of 
Mexico. And last week, after our conversation, I must say that 
I am confident that a humanitarian release of Andrew will occur 
very soon so he can start getting better and get the treatment 
he needs.
    And I believe the case that is being made here is a 
compelling one that will result in the right decision, the 
correct decision, the humane decision from the Attorney 
General.
    Thank you very much.
    Mr. Salmon. Thank you, Mr. Chairman.
    Pursuant to Committee Rule 7, the members of the 
subcommittee will be permitted to submit written statements to 
be included in the official hearing record. Without objection, 
the hearing record will remain open for 7 days to allow 
statements, questions and extraneous materials for the record 
subject to the length limitation in the rules.
    Ms. Gabbard. Mr. Chairman?
    Mr. Salmon. Yes.
    Ms. Gabbard. I request unanimous consent to recognize one 
of our colleagues, Congresswoman Debbie Wasserman Schultz, who 
actually represents the home district of Mrs. Tahmooressi in 
Westin, Florida, to join us here on the committee today. She 
has been actively advocating on this issue, working closely 
with Jill, with the Obama administration and the Mexican 
Government to try to secure Andrew's release.
    Mr. Salmon. Without objection, so ordered.
    Ms. Gabbard. Thank you.
    Mr. Salmon. First I would like to introduce our panel. And 
again, thank you so much for traveling across the country. I 
know you all have very busy schedules.
    Mrs. Tahmooressi is a resident of Florida and is the mother 
of Marine Corps Sergeant Andrew Paul Tahmooressi, an inactive 
reservist. Mrs. Tahmooressi is a licensed registered nurse in 
the State of Florida. She has been serving at Miami Children's 
Hospital since 1980, and from everything that I have seen and 
in my conversations with her, one heck of a mom. Glad to have 
you here, Mrs. Tahmooressi.
    Lieutenant Commander Williams is founder of the Montel 
Williams MS Foundation. Together with researchers and the U.S. 
Army, Mr. Williams is working on ways to improve the treatment 
for soldiers who have experienced blast-related traumatic brain 
injuries. It is so great to have you here and see you again. 
Lieutenant Commander Williams began his professional career in 
the U.S. Marine Corps. He holds a bachelor's degree in 
engineering and a minor in international security affairs from 
the U.S. Naval Academy.
    Sergeant Buchanan is a U.S. Marine Corps veteran and a 
Purple Heart recipient, who was honorably discharged after 6 
years of service. Thank you. Mr. Buchanan was a machine gun 
squad leader during the work-up training for his deployment 
with the 2/6 battalion, and helped train Andrew Tahmooressi as 
a machine gunner. While on deployment in Afghanistan, he fought 
side by side with Andrew. In August 2010, Sergeant Buchanan's 
all terrain vehicle ran over a 1201 IED, BIED, resulting in him 
earning his Purple Heart award. Since his exit of the Marine 
Corps, Mr. Buchanan has been active in his school's veteran 
club, in his community's veterans organizations, and is 
actively attending American Legion Post 862. He is currently 
working on his business degree.
    And Mr. Hegseth is the CEO for Concerned Veterans for 
America. The mission of CVA is to advance policies that will 
preserve the freedom and prosperity that veterans and their 
families so proudly fought and sacrificed to defend. An 
infantry captain in the Army National Guard, Mr. Hegseth served 
in Afghanistan in 2012, where he was the senior 
counterinsurgency instructor at the Counterinsurgency Training 
Center in Kabul. Previously, he served in Iraq with the 3rd 
Brigade of the 101st airborne division for their 2005-2006 
deployment. He earned two Bronze Stars and a combat 
infantryman's badge for his time in Iraq and Afghanistan. Mr. 
Hegseth graduated from Princeton University, completed a 
master's in public policy at Harvard University's John F. 
Kennedy School of Government in 2013.
    So the lighting system. And, Jill, even though I am going 
to enforce it on everybody else, I am never going to mess with 
somebody's mother. The way it works is, you are each given 5 
minutes for your testimony. After 4 minutes, the amber light 
goes on. When you start speaking, it will be green. When the 
amber light shows up, it means you have got 1 minute to wrap it 
up. The red light means stop for everybody but Mrs. 
Tahmooressi.
    And, Mrs. Tahmooressi, you are recognized.

 STATEMENT OF MRS. JILL TAHMOORESSI (MOTHER OF SERGEANT ANDREW 
                          TAHMOORESSI)

    Mrs. Tahmooressi. Mr. Chairman, Ranking Member, Members of 
the committee and Congress, thank you for the invitation to 
testify today.
    I am grateful for the committee's interest regarding 
Sergeant Tahmooressi, my son, and his ongoing incarceration in 
Mexico.
    As the mother of a high achieving young man, there are a 
few horrific memorable quotes I recall and wish to share with 
you regarding my son. I believe these quotes will not only 
frame the character of my son, yet will also highlight the 
current predicament my son is in.<greek-l>Quotes needed? deg.
    In 2006, at the age of 17, he said, ``Mom, I'm scheduled 
for my solo flight today. I'll be getting checked off on my 
private pilot license.''
    At age 18, after having graduated from public school, 
Westin Florida, and having been afforded the Florida Bright 
Scholarship, he said, ``Mom, I'm not ready for college yet. I'm 
going to head out to Alaska. I would like to be a commercial 
fisherman.'' One of his favorite shows at the time was ``The 
Deadliest Catch,'' if anyone remembers that.
    In 2008, ``Mom, God just nudged me to join the military. 
I'm going to enlist in the Marines.''
    In 2010 he would phone home when he could with the battle 
stories. I am a brave mom. I am a mom of a Marine. And so in 
2010, ``Mom, we just hit an I.E.D.''
    In 2012, ``Mom, I blacked out when I fell from atop an M-
Rap, hit my head on one part and I blacked out. They found 
me.''
    In 2013, ``Mom, I'm dropping out of Embry Riddle 
Aeronautical University [where I was enrolled in a bachelor's 
degree for the commercial pilot degree] because I can't 
concentrate on the academic work.''
    March 14th--or March 31st, sorry, 11:25 this year, ``Mom, I 
got lost. I made a wrong turn. I'm at the Mexican border. You 
need to know this, because I have been surrounded by military. 
In case anything happens to me, I need you to know where I 
am.''
    The following morning, April 1st, 2014, ``Mom, I've been 
arrested. Please secure me an attorney.''
    April 5th, ``Mom, I am not going to make it through the 
night. Whatever you do, do not come down here to investigate, 
do not come down here to ask questions. You will be killed as 
well. I need you to go underground. I need you to cancel your 
bank accounts. Let the Broward sheriff's office know, but, Mom, 
I am not going to make it through the night. Don't come down to 
investigate.''
    April 14th, ``Mom, I tried to kill myself because the 
guards and the inmates were going to rape, torture and execute 
me for personal information. I needed to protect you.''
    May 1st, ``Mom, it has been 25 days. I have been in four-
point chain restraint spread eagle on a cot in the infirmary.''
    These quotes, horrific in varying degrees for a mother, 
pale in comparison to Andrew's statement that, my time in 
Mexico has been far worse than my two combat tours to 
Afghanistan.
    Andrew is under contract with the U.S. Marine Corps. He is 
still a Marine, will always be a Marine, but he is an inactive 
reservist until August 24th, 2016. He was discharged active 
duty October 2012, serving unselfishly in Operation Enduring 
Freedom, multiple combat tours, being meritoriously promoted on 
the battlefield.
    Andrew felt privileged to serve the war on terror. He 
fought in an infantry battalion as a section lead and a 50-
caliber gunner. He volunteered and was willing to lose his life 
for freedom, liberty and the elimination of oppression. He 
fought not for one political party, yet he fought for the world 
at large, including Mexico, who does not send their military to 
foreign combats.
    Suffering symptoms suggestive of combat-related post-
traumatic stress disorder throughout 2013 while attending 
university, Andrew packed up his Ford F-150, the same truck 
that he drove to Alaska the 6,000 miles. He packed up his whole 
entire truck with all of his possessions, including his three 
U.S. legally purchased firearms. His first purchase, by the 
way, was in 2007 on his way to Kodiak, Alaska. That was the 
shotgun for his protection.
    He arrived at San Diego at the invite of a friend, who has 
got a Purple Heart, 100 percent disability, who said, Andrew, 
come out here. We have got the best VA system in the country. 
So he did that.
    And on March 12th, he received his crisis intake positive 
screen for post-traumatic stress disorder. At the time, he was 
ordered the cognitive therapy, the veteran group therapy. He 
attended on March 20th. And indeed there is a third medical 
record in his Veteran's Administration record from the morning, 
March 31st, that famous day when, at 10:30, he pulled out of a 
parking lot on the California side, San Ysidro, very confusing 
area, lots of construction going on. He had just come off that 
on ramp earlier in the day, so as he pulled out left, made a 
sharp left back onto that on ramp, thinking it headed north to 
San Diego, but in just a few hundred feet, a blind curve into a 
barricaded Mexican customs lane. There was no way to turn 
around at that time. In fact, there was no signage at the 
border at that time.
    With no visible sign indicating how to turn around and with 
no U.S. presence at the border, Andrew purposefully stops at 
the first Mexican official he sees and explains, I got lost, 
made a wrong turn, and ended up here by mistake. I have all of 
my possessions in my truck, including three U.S. legally 
purchased firearms. Can you show me how to get back to the 
border? He thought that that Mexican customs agent was going to 
flag him an escort vehicle, but over time, the military came 
onboard. That is when he dialed 911 for help. No one was able 
to help him, including the 911 operator. These facts are 
recorded and is evidentiary statement in the Federal Court of 
Tijuana, Mexico.
    Arrested on weapons and ammunition possession, now 
incarcerated in a Mexican prison, Andrew is despondent and 
desperate to return to the United States. His PTSD treatment 
plan has been aborted. It was aborted on April 1st, as Mexico 
does not have the ability to provide combat-related PTSD 
expressive group therapy as recognized here.
    He phones home every day. He is very complimentary and 
appreciative for the actions of the Congress, the actions of 
the White House in responding to the wethepeople.gov petition 
that was responded to on August 28th. At that time, the White 
House responded that they would ask for urgency, but today the 
urgency to influence expedition, in my opinion, is ineffective. 
It is 6 months, and we are still connecting dots. We still do 
not have the authenticated 911 call in the record. It is 
supposedly held up in a department in Mexico.
    Today, though, there is new signage at the border for 
wayward passenger--for wayward drivers that make that error 
that Andrew made, and I am sure there may be hundreds each day 
that do that, there is now a new sign that says, Return to the 
USA, erected in May, and the graffiti-laden sign that was on 
the on ramp, that also has been changed. So should any motorist 
make that mistake now, they do have way to come home.
    Mr. Chairman, I urge attention and collaborative action 
among the United States and Mexico for an expedient resolution 
of Andrew's Mexican judicial process, expecting wholeheartedly 
that release to the U.S.A. is justified. My son is despondent, 
without treatment, and he needs to be home.
    Thank you very much, and I look forward to your questions.
    Mr. Salmon. Thank you, Mrs. Tahmooressi.
    [The prepared statement of Mrs. Tahmooressi follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Salmon. Lieutenant Commander Williams.

  STATEMENT OF LIEUTENANT COMMANDER MONTEL B. WILLIAMS, USN, 
                  RETIRED (VETERANS ADVOCATE)

    Lt. Commander Williams. Thank you, Chairman Salmon, Ranking 
Member Sires, and Chairman Royce, members of the subcommittee 
and full committee.
    It is very critical, extremely critical that we are holding 
this hearing today, and I can't thank you enough for doing so.
    I also want to say thank you to all the members who made it 
a point to come back for this hearing today, but you have to 
understand that your peers must recognize the fact that 
veterans are watching today, and for those of them who did not 
come back, this will be remembered.
    While the scope of this hearing is limited to the case of 
Sergeant Andrew Tahmooressi, I would be remiss to remind this 
committee that Andrew's case is merely a symptom of a greater 
policy failure in how we address the needs of all of our 
returning soldiers. The failure is unfortunately even more 
pronounced when it comes to PTSD. And we throw this term around 
very lightly, but what we have to recognize is that 30,000 new 
cases of traumatic brain injury occur every year in our 
services, and it doesn't matter whether or not soldiers go into 
a combat situation or not. The majority are from training 
exercises. We currently have over 600,000 veterans suffering 
from residual symptoms from traumatic brain injury right now in 
the VA system.
    And I will tell you, no ifs, and or buts, our veterans from 
Iraq and Afghanistan often feel absolutely abandoned by our 
Government, and I believe that they have a reason to feel so.
    Before I begin, my testimony is definitely longer than 5 
minutes, so I am going to synopsize and make sure I yield to 
others, but there are some points that I think really clearly 
have to be made.
    As we have addressed it over and over again, Andrew made a 
wrong turn. And we have thrown out a couple of terms related to 
PTSD with that by saying, hypervigilance, but we have got to 
slow down for just a second and take a minute and understand 
what that means. Though Jill can't say it and others won't say 
it, we know for a fact that Sergeant Tahmooressi's time in this 
prison has been worse than his time in both combat situations. 
He is going to come back to the United States and have to be 
treated for his combat PTSD, but also his incarceration PTSD. 
And to me, this is an abomination.
    Six months. He didn't hesitate to say, aye, aye, sir, to go 
off and serve. How dare we, how dare we as a Nation hesitate to 
get that young man back. We sit here in this city and discuss 
sending more young people off to die. I have a son who is 21 
years old who has asked me over and over again, dad, should I 
serve? And right now I am telling him no. That is coming from a 
guy who did 22 years in the service, but, no, because our 
Government doesn't respect you enough. And how dare they treat 
him the way they do and the way they will.
    Andrew's incident is clearly triggered by his PTSD. The 
hypervigilance, when he made that turn while in Mexico, he made 
a decision to leave. When he got in his car, he was probably 
already triggered.
    And just so some of you understand, I suffer from MS, I 
have scars in my brain that are synonymous with concussive 
brain injury, so some of the symptoms that I am talking about 
are symptoms that I live through on a daily basis: Emotional 
lability, sometimes depression, sometimes hypervigilance. I can 
walk in this hallway in Congress, where I am most protected, 
and be afraid to walk in that bathroom. This is what these 
young men live through, and it is sad that we have one of our 
own right now being held in a prison while we talk about it.
    It is clear, everyone understands, he is not going to get 
the treatment that he is due. He has served the time, I 
believe, for any crime that he could have committed. So bring 
him home and let's treat him appropriately, but his treatment 
is not going to just be for combat PTSD. And remember, his 
treatment for his PTSD for being in prison rests on our 
shoulders.
    Now, I want to clearly say I have the utmost respect for 
the Mexican Government and the Mexican people. I am not one of 
those who is going to join into the fray of screaming for 
invasions and all of those things, but what I am going to 
scream for is the one part of political diplomacy that has not 
been used yet, and Congressman Salmon, you pointed it out, it 
is called political compassion. Compassion is what is needed 
right now. Woe be it to us to let this case go by and then have 
to deal with the other 600,000 soldiers who are suffering who 
could make the same mistake.
    My testimony is much longer than 5 minutes. I would please, 
please ask the members to read the entire thing. I have 
synopsized for you, but I would like to leave you with one 
other little point. Every nation on this planet and all people 
are judged, no matter what religion you are, whatever faith you 
are, we are all judged by what we do for the least of us. 
Andrew is one of the best of us, America's treasure. If we 
can't treat the best better than we treat the worst, how dare 
you ask another gentleman to put on a uniform.
    Thank you so much, sir.
    Mr. Salmon. Lieutenant Commander Williams, without 
objection, your testimony, your full testimony and everybody's 
full testimony will be entered into the public record. And I 
appreciate your great comments.
    [The prepared statement of Lt. Commander Williams follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Salmon. Sergeant Buchanan.

 STATEMENT OF SERGEANT ROBERT BUCHANAN, USMC, RETIRED (SERVED 
           WITH SERGEANT TAHMOORESSI IN AFGHANISTAN)

    Sergeant Buchanan. Mr. Chairman, Ranking Member, members of 
the committee, thank you for the invitation to testify today.
    I am forever grateful for the subcommittee's interest in 
the overview of Sergeant Andrew Tahmooressi's dire need to get 
Veterans Affairs Hospital medical treatment as soon as 
possible.
    First off, I want to say, I knew Andrew, I was a corporal 
when he came to our unit. And I was the guy that made sure he 
had a haircut on Monday and a fresh shave every day, but if you 
guys have any questions to who Andrew truly was, I recommend 
you ask Sergeant Mark Podlaski back here, his best friend, 
brother in arms. The two were inseparable the entire time I 
knew them.
    You don't truly know a man until you have deployed to 
combat with that individual. I had the pleasure of both taking 
part in training and deploying to Afghanistan with Sergeant 
Tahmooressi. He was truly one of the best junior Marines I have 
ever had the pleasure of working with. You tasked something out 
to him, there was not a second thought. It was going to get 
done. He was the kind of guy that his peers looked up to. From 
the get-go, the first day I met his group when they came to our 
unit, Sergeant Podlaski and Sergeant Tahmooressi stood out 
amongst their peers. He had a humble attitude, never talked 
back, was always eager to learn and be the best Marine he could 
be.
    This was a Marine who received a combat meritorious 
promotion. Let me go back. Sergeant Andrew Tahmooressi was 
meritoriously promoted to corporal. That alone speaks to 
somebody's character. To be combat meritoriously promoted in 
this day and age amongst our field, it is a rarity and an honor 
amongst our gun club, if you want to call it. This alone speaks 
volumes to what kind of individual Andrew is and can attest to 
his character.
    On Andrew's last deployment, he saved the life of a fellow 
Marine by securing tourniquets on him after he stepped on an 
IED, improvised explosive device, causing him to lose both of 
his legs. It is in these moments that a man's true character is 
tested, and Andrew shined. He did not run away; he ran to help.
    Congressman Matt Salmon, Ed Royce and Duncan Hunter, I want 
to personally thank you. You have spearheaded our cause in 
getting Andrew home. And from the bottom of my heart, I want to 
thank you personally. They have all sent out multiple letters 
in support to the State Department and the White House. I also 
had the opportunity to sit down face to face with Congressman 
Ed Royce, and from the get-go, we had his immediate and 
unflinching support toward Andrew's release.
    The crime with which Andrew is being charged requires 
intent. Weapons trafficking is not a negligent crime, and his 
true intent has been proven as being an accident.
    Please help us get this combat veteran home and into the VA 
for much needed medical care. Every day he is down there is a 
day longer that it is going to take for him to readjust in the 
civilian life. Every Marine, every military member comes back 
with different luggage from war and it takes different amounts 
of time to readjust in the civilian life. We all have our good 
days and bad, but isolation is the last thing anyone needs.
    Please help us get him home and the treatment he so direly 
needs.
    Thank you.
    Mr. Salmon. Thanks, Sergeant Buchanan.
    [The prepared statement of Sergeant Buchanan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Mr. Hegseth.

    STATEMENT OF MR. PETE HEGSETH, CHIEF EXECUTIVE OFFICER, 
                 CONCERNED VETERANS FOR AMERICA

    Mr. Hegseth. Members of the Foreign Affairs Committee, 
thank you for the opportunity to be here today.
    I want to thank Chairman Salmon, Chairman Royce, Ranking 
Member Gabbard, U.S. Marine Duncan Hunter, and everyone else 
who came back from their districts to be here for this 
important hearing. It is greatly appreciated. Your forward-
leaning support of veterans and our military matters and is 
noticed.
    I also want to thank my fellow witnesses, who are allowing 
a soldier to hang out with a bunch of Marines.
    Mrs. Tahmooressi, your courageous advocacy on behalf of 
your son inspires us all. It really does.
    Sergeant Buchanan, thank you for having the back of your 
fellow Marine.
    And Lieutenant Commander Williams, Marine, using your 
platform the way you are makes a huge difference. Thank you 
very much.
    My name is Pete Hegseth. I am the CEO of Concerned Veterans 
for America, and our mission is to fight for the freedom and 
prosperity of all Americans, but specifically for the well-
being of veterans. And we represent a growing number of 
veterans and military families who refuse to accept the status 
quo in Washington. We fight like hell, aggressively and 
passionately, to ensure that America's veterans are no longer 
treated like second-class citizens in their own system and in 
their own government.
    The ongoing situation with Sergeant Tahmooressi, who has 
now been held for 184 days by the Mexican Government, is yet 
another example of our Federal Government leaving a man behind. 
In the military, we leave no man behind. We are leaving an 
inactive reservist behind in Mexico.
    Andrew Tahmooressi is a United States Marine, he is a non-
commissioned officer, he is a machine gunner and infantryman, a 
decorated combat veteran who deployed twice to Afghanistan, 
meeting the enemy in fierce combat. Sergeant Tahmooressi 
literally saved the lives of his fellow Marines. He was so 
good, as everyone has said, a meritorious battlefield 
promotion, which is nearly unheard of.
    His gunnery sergeant called him, your gunnery sergeant, 
called him an outstanding Marine and a stand-out guy. There is 
no doubt this guy is an American hero, plain and simple, but 
his service comes with a physical and psychological cost. And 
let me assure you, post-traumatic stress, or PTS, it is real. 
And if left untreated, especially for those who partook in the 
horrors of war, it can become a lifelong disorder that you 
manage. And it can also be deadly. As many people here know, 22 
veterans in America today take their own lives. Many more 
struggle in silence.
    As has been reported widely already, Sergeant Tahmooressi 
was diagnosed with PTS before he crossed that border and 
attempted to take his own life in a crowded Tijuana prison. The 
condition has only been exacerbated by his treatment there and 
his lack of treatment in the United States.
    He doesn't face post-traumatic stress because he is weak or 
because he is a coward or because he is a victim. He simply 
faces the invisible wounds of war. And right now he faces them 
alone, largely alone, with a few advocates fighting for him on 
the outside.
    Left untreated, these hidden wounds, they can lead to the 
bottle, they can lead to reckless behavior, they can lead to 
detachment and societal withdrawal. Following my tour in Iraq, 
I know I dealt with all three. But much worse, these scars can 
end in suicide, unless, of course, there is a lifeline. Seeking 
care for post-traumatic stress either through peer-to-peer 
counseling, alternative therapy, family support, or proper care 
at the VA saves lives.
    Those who manage post-traumatic stress, they are not 
ticking time bombs, they are not victims. With the right 
treatment at the right place at the right time, most soldiers 
and Marines, like Sergeant Tahmooressi, come back and become 
the leaders and the pillars of our communities that we need so 
badly in America today.
    My bottom line to this committee and to this Government and 
to the Mexican Government is this: Sergeant Tahmooressi needs 
and deserves immediate treatment for his post-traumatic stress, 
and shame on anyone at home or abroad who doesn't move heaven 
and earth to make that happen.
    In combat, men like Sergeant Tahmooressi never have enough 
troops or enough ammunition, never have enough time or enough 
equipment, but they still get the job done. The same should be 
expected from the United States Government. No excuse for 
inaction is good enough. He should be released immediately, end 
of story.
    Before leaving home for this testimony, I kissed my two 
young sons on the forehead. And I am willing as a soldier and a 
citizen and a father to someday lend them to the cause of 
freedom's fight, but in doing so, I only ask that my Government 
do everything possible before, during and after they serve, to 
stand right beside them and be there for them. Mrs. Tahmooressi 
expected the very same thing. Is she going to receive it? is 
the million-dollar question.
    In closing, the contrast before this committee, this 
Congress and this White House could not be more stark. And it 
has been mentioned twice, but it is worth mentioning again. 
This administration negotiated with the Taliban and exchanged 
five terrorist killers with American blood on their hands for 
the release of Army Sergeant Bowe Bergdahl, a soldier who 
deserted his unit on the front lines 2 months into his first 
tour of duty.
    And as everyone has heard, Sergeant Tahmooressi did two 
tours of duty, a highly decorated Marine. Sergeant Bergdahl 
cost American lives; Sergeant Tahmooressi saved lives. Does 
that not matter?
    It is time to bring our Marine home, long overdue, and get 
him the care that he has earned.
    Thank you for this opportunity, and I welcome your 
questions.
    Mr. Salmon. Thank you.
    [The prepared statement of Mr. Hegseth follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Salmon. I am going to yield myself 5 minutes for 
questions, and Mrs. Tahmooressi, I would like to start with 
you.
    Interesting enough, Mr. Hegseth, after the release of 
Bergdahl, there was a lot of media scrutiny about that 
arrangement, that trade. And the President very boldly said on 
national TV that as Commander in Chief, he leaves no soldier 
behind. That is his policy.
    I just want to ask you, Mrs. Tahmooressi, has the President 
personally called you, has he personally contacted you about 
this case?
    Mrs. Tahmooressi. No, he has not, Chairman.
    Mr. Salmon. To the best of your knowledge, has the 
President made any kind of a phone call to the President of 
Mexico to intercede on Andrew's behalf?
    Mrs. Tahmooressi. Not to my knowledge.
    Mr. Salmon. I know I had a personal meeting with Vice 
President Biden the week before the President was to speak with 
the President of Mexico, and Vice President Biden assured me 
that they would be on top of it. And I was told after the phone 
call that the President did not bring it up. Very, very 
disappointed.
    Can I ask you, Mrs. Tahmooressi, how have the Mexican 
authorities treated you as you have searched for information 
regarding your son and his location? Have they been forthcoming 
or have they left you in the dark during this process?
    Mrs. Tahmooressi. Well, the judicial process is one that is 
done in secrecy, in a sense, because I attend all of Andrew's 
hearings, and supposedly it is supposed to be open to the 
public, yet each and every hearing I attend, the honorable 
presiding judge asks that I sit out in the hallway, because 
there is not enough space in the courtroom.
    So I have not been given any information forthcoming from 
Mexico officials other than a fact sheet that did come out some 
time ago, yet I had some questions on their facts.
    Mr. Salmon. I was mystified when you told me that the judge 
would not allow you, the mother, to come in and sit in the 
hearings, that you actually have to sit outside.
    Mrs. Tahmooressi. Correct. And it is interesting, that it 
is always a hearing room that is selected without even a 
window. All of them have windows except for the one that 
Andrew's court proceedings are going on.
    Mr. Salmon. How about our folks at the consulate there in 
Tijuana? Have they been pretty helpful?
    Mrs. Tahmooressi. Well, the local department, that would be 
Consul General Andrew Erickson, who actually served with Andrew 
in Afghanistan in 2012, from a personal standpoint, like making 
sure Andrew has a toothbrush, making sure that I get escorted 
in and out safely, because there are travel warnings, in the 
beginning they had red alert travel warnings to Mexico, 
Americans were supposed to keep a low profile because of a high 
risk of kidnapping.
    So they do help escort me in and out; however, it is the 
State Department local level on April 14th that translated the 
VA medical record that I ran to San Diego, and it is the State 
Department in Tijuana, Mexico, on April 14th that flew in Dr. 
Riegel from the U.S. Embassy in Mexico City. Dr. Riegel did a 
full evaluation that day. I witnessed it. And I received the 
report from the State Department approximately May 1st with the 
diagnosis of PTSD.
    It was translated and supposedly given to the judge, but it 
was never entered into court as evidence to substantiate PTSD. 
It was not considered--I don't know if it was because it wasn't 
considered legitimate, it was from a U.S. source, and that is 
why just 2 days ago, 6 months into this ordeal, a Mexican 
psychiatrist has come in to validate combat-related PTSD, which 
I just find ironic, because they don't send their military to 
combat.
    But the Mexican psychiatrists are considered legitimate, 
but not Dr. Riegel, who did a full evaluation, from our U.S. 
Embassy in Mexico City on April 14th, but those documentations 
have not seemed to be effective or considered of high 
importance.
    Mr. Salmon. Thank you.
    Lieutenant Commander Williams, you mentioned in your 
testimony that him being in prison for 6 months is extremely 
counterproductive to his PTSD. Can you elaborate on that just a 
little bit?
    Lt. Commander Williams. Yes, sir. No question. I was 
afforded with Jill an opportunity to speak to Andrew, what, 3 
nights ago, 3 days ago, and it was my first time speaking to 
him, because I literally tried my best to keep this off of 
Montel and keep this on Andrew, and knowing that when I enter 
this fray, the press would maybe take it in the wrong 
direction.
    When as I spoke to him, he said to me the other night 
specifically, we talked for a couple minutes just in general, 
how are you doing? Okay. And I said to him, it is an ignorant 
question for me to ask you, Andrew, but Marine to Marine, how 
are you doing? And he paused and he said, I have a hard time 
keeping the bad thoughts out. I have a hard time keeping the 
bad thoughts out. This is 2 days ago. I have a hard time 
keeping the bad thoughts out, this is a key statement from a 
person suffering right now, and he was sending that message, I 
think, clearly to let me know and let his mom know, it is not 
going well, but he couldn't say it in any other way.
    So why am I so concerned? Again, this is not about me, but 
most of you know I have suffered from MS for the last 20 years, 
diagnosed in 1990. My MS, I have scars on my brain that are 
closely equivalent to a concussive blast, so these symptoms, I 
recognize. I am in a treatment program for them now and I am 
doing very well, however, I know 1 day, 2 days without 
treatment that I have, these things come back.
    And unfortunately, Andrew being involved in a concussive 
blast, we have just now determined he has traumatic brain--
well, PTSD, but they really haven't looked at his brain yet, 
and there may be residual effects that are going to cause this 
a little bit longer to be treated. And now for him to sit in a 
prison, and I know we are hesitant to say it, but the rumors 
are that he has been beaten, he has been treated like a POW, 
not a person incarcerated for making a mistake.
    And he said it to his mother and he said it to his peers: 
His treatment here is worse than being in Afghanistan. And for 
a person who is suffering to make that statement, he knows it. 
So when we get him home, this is just the beginning, but it is 
also an example of what we need to make sure we take care of 
for the other guys and the other soldiers that are serving and 
suffering the same way.
    Mr. Salmon. Thank you very much.
    The Chair yields to the gentlewoman from Hawaii.
    Ms. Gabbard. Thank you very much, Mr. Chairman, and thank 
you all for your very heartfelt testimony.
    I wish we had more time. I know it is very difficult to 
capture everything that you are conveying in such a short 
period of time.
    I understand and can appreciate everything that each of you 
has communicated with regards to post-traumatic stress, with 
regards to the treatment that Andrew needs, but I want to take 
a step back for many people who may be watching or listening 
who have not worn the uniform or who have not had a family 
member who has worn the uniform and who haven't had that first-
hand experience that each of you has related.
    And put us in the position of any one of us going there, 
any one of us missing that turn, any one of us not seeing a 
sign and ending up in a position where you are getting 
arrested, you are surrounded by the military after making an 
honest mistake, I think each of us would probably be pretty 
pissed off, each of us would probably not be acting in the 
calmest of manners, understanding the unknown that lay ahead, 
anyone in that situation.
    And I think that on top of that, understanding the strong 
case of his character that you have made, the strong case of 
his service, his commitment, what he has done, the commitment 
he has had throughout his life only adds to that understanding 
and really goes to the point of the fact that what is 
occurring, there is no excuse, there is absolutely no excuse 
for it.
    And the most unfortunate thing is it appears that 
bureaucracy is being allowed to be used as an excuse for his 
continued incarceration and is really being blamed for why no 
action has been taken. As many of you said, whatever it takes, 
whatever it takes, he should be brought home.
    My question for Jill is after the September 9th hearing, it 
has been reported that your son's lawyer expressed confidence 
that a favorable ruling may be close, and I am just wondering 
if the assessment has changed since then and how you expect 
things in the near term to go from the Mexican judicial 
standpoint?
    Mrs. Tahmooressi. Thank you for that question. Mr. Fernando 
Benitez is Andrew's current criminal defense attorney. We had 
had two attorneys previous to Mr. Benitez, who did great 
disservice to Andrew. They were not of the ethics that I had 
expected, especially since the first one was actually--I 
selected off of the Department of State reference sheet in 
Tijuana, Mexico.
    But Mr. Benitez does state a high degree of confidence. 
There was a hearing on September 9th where the video 
surveillance was watched for 8 hours, and it definitely 
corroborated Andrew's truthful and forthcoming statement and it 
did poke holes in the statements by the Mexican officials and 
customs agents.
    So for that reason, Mr. Benitez believes that he is very 
close to resting the case now and he expects a verdict--or an 
action of either dismissal or acquittal within the next couple 
of weeks, especially since the two psychiatric evaluations, one 
from the defense and one from the prosecutor, have just been 
done and filed in the court yesterday and ratified at 5:30 in 
the afternoon.
    So I believe we are just several weeks away. We are 
hopeful.
    Ms. Gabbard. Thank you.
    And for Mr. Williams, I know that you, as well as Jill and 
others, have talked about specific actions, a phone call from 
the President, you mentioned the petition that over 100,000 
people have signed. What specific actions do you feel will 
actually truly be effective in gaining Andrew's release that we 
can advocate for and that we can push for here?
    Lt. Commander Williams. Congresswoman Gabbard, first, I 
want to apologize for not acknowledging you as the ranking 
member, and I also want to say thank you for your service.
    It is right now 11:05. If this hearing is going to stop in 
the next 10 minutes, I think the President needs to pick up the 
phone in 15. Make the call. Make the call today. If you are not 
going to call President Penna Nieto, call this woman. This 
woman's child, he is a father. I am a father.
    I need to say something else that I didn't say earlier. The 
reason why I jumped out, decided to become more public--and 
please, believe me, it is not about me--I have a daughter right 
now who has been going through cancer treatments for a year. 
She is now in her second round. It came back. It is the worst 
of it the last couple days.
    This woman, since June, has sent a prayer to my family 
every day for my daughter. So those who wonder why I am here, 
this is a father and a mother who have two ill children. I know 
a lot of us who suffer from post-traumatic stress don't like to 
use that term ``ill.'' But if we use it appropriately and use 
it the right way, that means it can be treated. It is an 
illness.
    And so I would beg that the President make that call. If 
that can't happen, then I would say that I would beg that maybe 
this committee, we issue a joint statement directly to 
President Penna Nieto and say the world is watching, it is time 
for you to act.
    Ms. Gabbard. Thank you. Thank you all very much.
    Mr. Salmon. Thank you.
    Chair now recognizes the chairman of the full committee, 
Mr. Royce.
    Mr. Royce. Yeah, I wanted just to go to Sergeant Buchanan.
    And I think all of us are hopeful that your friend Andrew 
will be back here soon. But what advice, I think I would ask, 
would you give him and us on how best to approach his PTSD 
treatment? And I would also ask that question of Mr. Hegseth, 
since he is a veteran and works regularly with those who have 
gone through something of what Andrew has gone through.
    Sergeant Buchanan. Thank you for your question, Congressman 
Royce.
    He needs to be with his brothers, the guys that trained 
with him, deployed with him, know what he is going through. It 
doesn't matter what branch, what your job was, we all wore a 
uniform, and that is what we have in common. And that is 
something, outside of the military, when you are readjusting. 
That is something about Sergeant Tahmooressi, is his humble 
attitude. He has a servant's heart. He always wants to help. 
And part of the problem with that is he will help other people 
before he helps himself.
    He had just started the VA treatment, the process. He was 
just at the beginning, getting diagnosed. That is nothing. That 
is the first of many steps, and it is a long process, the VA 
system. We need to get him in there, get him with his friends, 
start the healing process, because, like everyone was saying, 
isolation is the last thing a Marine, a combat vet needs that 
is suffering from post-traumatic stress disorder.
    Mr. Royce. And I will go to Mr. Hegseth. You mentioned also 
the trade that the United States made for five senior Taliban 
leaders, including former director of intelligence for the 
Taliban, one of their senior commanders. One was chief of 
staff. The chief of staff was implicated in the death of 
thousands of Shia. All five had been involved in coordinating 
attacks against American and coalition forces, and three of the 
five were directly linked to al-Qaeda.
    Now, the United States has taken an action to get them 
released. And one of those five in Qatar today already told a 
senior Taliban official--this was reported on the news--that 
his next step would be to try to return to Afghanistan in order 
to carry out attacks against American and coalition forces 
there.
    Let me ask you your thoughts on this and what can be done 
in order to secure the release of Sergeant Tahmooressi.
    Mr. Hegseth. Me and my men guarded those five detainees at 
Guantanamo Bay for a year. This is something that is incredibly 
personal for all those that have served and specifically those 
that have served in those combat zones.
    To know what it took, to know the number of boots that were 
on the ground that sought those men, to lock those men up, so 
that we don't have to face them again, and then to know that 
our Government is willing to give them away. And then a Rose 
Garden ceremony with a family of someone who everyone knows who 
has looked at the case deserted his unit. And then Ms. 
Tahmooressi can't get a phone call.
    And we hear all about a pen and a phone. Use your pen and 
your phone and call the President of Mexico and get this done. 
It is not hard. And it is not political. It is personal for 
people that know it.
    And Sergeant Buchanan was perfect on his remarks about the 
VA. It is peer-to-peer counseling. It is being and talking to 
the men that you have served with. And oftentimes at the VA, 
there is also alternative therapy.
    The question also, and this is not the hearing for the 
Department of Veterans Affairs, but, Ms. Gabbard, you talked 
about bureaucracy. How many people, how many Sergeant Jones and 
Sergeant Smiths are attempting to access mental healthcare at 
the VA and then they are made to wait weeks and months?
    You know how many mothers I meet on the road when we do 
events that come up to me and said, I lost my son to suicide as 
he was waiting for treatment at the Department of Veterans 
Affairs?
    That is a scandal just like this one and another instance 
where our Nation turns its backs, as Lieutenant Commander 
Williams talked about, on those who have given so much for this 
Nation. So trading deserters for terrorists and making veterans 
wait for basic care, unacceptable.
    Mr. Salmon. Thank you, Mr. Chairman.
    The Chair recognizes Chairman Smith, who is chairman of the 
Subcommittee on Human Rights and the former chairman of the 
Veterans' Affairs Committee.
    Mr. Smith. Thank you very much, Chairman Salmon.
    And I think this hearing perhaps more than anything else 
that has happened so far will give additional hope to Andrew. 
And hopefully he knows the strong bipartisan support, the 
concern, the prayers that go out for him.
    And I would just say to my colleagues, I am not surprised, 
I am not shocked that the President has until this moment--and 
Montel Williams, I think, made an excellent point about pick up 
the phone, Mr. President.
    This is not calling Ruhani on behalf of Saeed Abedini, a 
pastor from the United States. This is a calling a friend and 
ally with whom we have a robust trading relationship. It is a 
dereliction of duty on the part of the President that he has 
not made this phone call. And not just one, but then put the 
full court press on the Mexican Government to release Andrew.
    Let me just say also, and Matt Salmon mentioned I was 
chairman of the Veterans' Affairs Committee, I served on that 
committee for 26 years, including a stint as its chairman.
    PTSD, as I think you know, Pete, during the Vietnam war 
there was denial about PTSD. That argument has long been over. 
And the care, even though it is often delayed, that the VA 
provides, they have literally written the book on how to care 
for veterans who are suffering from post-traumatic stress 
disorder. And delay is denial. One day of a delay is denial.
    And I also think it needs to be pointed out that 6 months 
of inattention to any service-connected disability, be it 
physical or psychological, causes that condition to fester and 
to worsen.
    So the ongoing appeal to the Mexican Government today is 
very simple and very direct: Release Andrew now, today, so that 
he can procure badly needed treatment for PTSD. He is a hero. 
He is a man that the American people and this Congress looks up 
to and says thank you. And yet he languishes in a Mexican 
prison. And we need to do more.
    But, again, we write law, we fund programs, and we do 
oversight as Congress. It is the executive branch that has 
direct contact with the President of Mexico. And that phone has 
to be raised to his ear and he has to not get off the phone 
until Andrew is released.
    So, again, I want to thank you. This is powerful testimony. 
And to hear a mother make such an articulate and strong appeal 
on behalf of her son and then have three very distinguished 
Americans do so in a way that has to be heard in Mexico City, 
it has to be heard at 1600 Pennsylvania Avenue. It has already 
been heard by Members of Congress.
    And my colleagues have done yeoman's work. And, again, 
thank you, Matt, thank you, Chairman Royce, Duncan Hunter and 
others, who have done so much for so long. But the President 
has to do his part. Andrew has to be on a plane getting that 
health care that he needs. Delay is denial.
    I thank my friend, and I yield back.
    Mr. Salmon. I thank the gentleman.
    I would like to now recognize the former chairman of the 
full committee and a great American, the gentlewoman from 
Florida, Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Thank 
you to the chairman of the full committee.
    Wow. Incredible witnesses. Thank you so much.
    Jill, I wanted to follow up on a few things that we 
discussed when we met in Miami. I am aghast that you still have 
not heard from the White House.
    Do you play golf?
    Mrs. Tahmooressi. No.
    Ms. Ros-Lehtinen. No? Because I know that you are a nurse 
at Miami Children's Hospital. That is just literally blocks 
away from the Biltmore, a beautiful hotel in Coral Gables. They 
have a wonderful golf course. Should we invite the President to 
play a few rounds of golf with you, get his attention?
    Mr. Chairman, I would like to request unanimous consent to 
submit a statement from a constituent of my congressional 
district, Olivia and Jon Hammar. Jill knows them well. They are 
parents of a Marine veteran, Jon Hammar, who similarly was 
arrested, detained for weeks and weeks and weeks in Mexico.
    It is an absolute shame, it is a disgrace that we even need 
to be here. It says quite a lot about the priorities of this 
administration. It should not be up to the moms, it should not 
be up to the wounded warriors, to the families, to the 
friends--and Mr. Tahmooressi has so many friends--to wage this 
awareness campaign to get our Government to act, to press the 
administration for Andrew's release.
    And I wanted to ask you about the process you have had to 
go through with the lawyers in Mexico. And I am recalling some 
of the same things that Olivia had to go through. Because it is 
important that we recognize the similarities between the cases. 
Tahmooressi took a wrong turn, ended up in the twilight zone, 
and we must get him back.
    I know that the consulate is prohibited from providing 
legal advice, but it does give folks some help in finding a 
suitable lawyer. Both you and Olivia had to go through a number 
of lawyers before you could find a good and trustworthy one. Is 
that correct?
    And could you describe the process that you went through to 
find your lawyers? And the consulate provided you with a list, 
but was it a list of vetted individuals or was it more like, 
okay, here is an abbreviated version of the old-fashioned 
Yellow Pages, select from this. And I will have you respond in 
a second.
    And, finally, I would like to ask about Andrew's health and 
his injuries from Afghanistan and ask the panel for their 
recommendations on how we can better serve our combat veterans 
who return home.
    As we have heard, Andrew has suffered at least two separate 
concussions. We heard today that he has not been evaluated for 
traumatic brain injury. There should be no reason why our 
veterans should return home, don't get the immediate attention 
that they deserve medically.
    What do we need to do to make sure that these brave men and 
women aren't falling through the cracks when they return?
    And as we heard from Mr. Williams and Mr. Hegseth, who 
testified, the alarming number of veterans who take their lives 
every day. We need to do more as a society, as a government to 
address this issue today.
    So, Jill, I will start with you. If you could tell us about 
the process of finding a lawyer.
    Mrs. Tahmooressi. Well, when I got that phone call on April 
1, Mom, I have been arrested, get me an attorney, I did the 
responsible thing, I reached out to my congresswoman, Debbie 
Wasserman Schultz. And her staff led me to George Rivas of the 
Citizen Services in Washington, DC. He said, go to the Web 
site, there is a Web site, Tijuana, Mexico, U.S. Consulate 
Services, and look at the list.
    And so I started down the list, and I reached this 
gentleman's name. I phoned him. He answered the phone. He spoke 
English. Tijuana is just 10 miles away from San Diego, yet 
there is a language barrier.
    So this particular lawyer spoke English, actually U.S. 
trained. And he was listed as a criminal defense attorney. That 
experience, I thought I was getting a reputable attorney, and 
he was probably the most scrupulous and exploitative person I 
have ever met in my life.
    He served in the disclosure statement before the judge as 
attorney and translator, and he scripted a mistruth. He 
scripted a mistruth. He perjured my son. He scripted a mistruth 
and told Andrew that, this is Mexico, forget anything you know 
about American law. And this is Mexico, who I believe we sent 
$100 million to in the past couple of years to help them reform 
their judicial system.
    This is the attorney that told Andrew that he must say that 
he just arrived in San Diego that day, he was rushing to meet a 
friend, he has never been to Mexico before, and he got lost.
    When Andrew called me that afternoon and said, Mom, where 
did you get that attorney, he just lied, and he told the judge 
that I have never been to Mexico. Mom, I stood up twice. The 
prosecutor was there. The defense attorney. Andrew, he stood up 
twice to say, no, because he must have understood that, no, I 
have been to Mexico. This attorney hushed him, told him to sit 
down.
    And when I called up this attorney that night and I said, 
you said what? I said, my son has been to Mexico, and my son 
never lies. My son has some faults, we all do, but lying has 
never been one. He is a man of integrity.
    He said, Mrs. Tahmooressi, this is Mexico, you have to 
forget everything about America. We don't practice common law. 
We do oral arguments. They are not going to check any evidence.
    I said, they are not going to pull bank accounts? Because I 
pulled his bank account. I see that he has been in Tijuana 
twice. And I got validation that he had walked into Mexico with 
his best buddy friend, the Purple Heart that invited him to San 
Diego. Within hours of arriving to San Diego they were already 
in Tijuana. There must be a popular place in Tijuana for the 
Marines to visit.
    So I knew he had walked into Mexico one other time. And he 
had told me he had walked out of Mexico that day when he got in 
his truck purposefully to head back north to San Diego, because 
he had stayed in a hotel the night previous, the Old Town San 
Diego. He was headed back because he got triggered in Tijuana. 
Upon nightfall, he got triggered and thought I need to get out 
of here and to my friends in San Diego.
    So that was my experience with the first Mexican attorney. 
And that is why Andrew's original court date, I think it was 
August, I am not sure of the exact date, but he had to go into 
court and say, Judge, I request that this attorney no longer 
represent me, in a sense, I fire this attorney. Because we 
could not proceed with the lies. We could not proceed with the 
lies.
    That was my experience with selecting an attorney. And by 
the grace of God, though, a great man serving California, he is 
a criminal defense attorney, Phil Dunn. He had heard me on a 
radio station or TV maybe. And he called me and said, Jill, I 
am sorry, but you don't know how to pick Mexican attorneys. I 
am going down with you and we are going to pick an attorney.
    So we did. We went down there. But this time the State 
Department, the same State Department that referred me to the 
list, we met in their boardroom. And we said, please provide us 
a list, a short list, and as we typically rank number one as 
preferable, do provide us a short list.
    So they did. They provided a short list within hours. We 
went interviewing at least four to five different firms and 
selected Mr. Benitez the next day.
    Mr. Salmon. Thank you very much.
    The Chair recognizes the gentleman from California, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Thank you very much to all of the leaders 
who have provided their time and effort to make sure this 
hearing, which is an incredibly significant hearing, is 
happening.
    And let me thank Mrs. Tahmooressi for sending me a tweet 
the other day to draw my attention to something that I didn't 
notice was even going to happen. And so I did redo my schedule. 
Thank you.
    We are defining ourselves today. We define ourselves by our 
actions, especially in times of crisis. Andrew defined himself. 
At a time of war, he joined the United States Marine Corps. I 
come from a Marine family, and I know what that means.
    And I will just say that I also know that Andrew did not do 
anything intentionally wrong. I went to Tijuana and I retraced 
his steps. I retraced his steps. And on the way back, when I 
drove out of that parking lot and made that turn to the left, 
it appeared, I can testify to everybody today, it appeared that 
I was going into California. And once you made that turn there 
was no going back until you were in Mexico. There is no doubt 
that this problem was not caused by any intention of Andrew to 
in some way not respect the law of Mexico, and that is very 
evident.
    Today, Mexico is defining itself, however. Mexico is 
defining itself to us. I have a warm spot in my heart for 
Mexico, and I like the Mexican people. And I think that I am 
speaking for most of us here today. Mexico we look at as a 
friend. I hope the people of Mexico are listening, because if 
this thing isn't cleared up soon there will be hostility that 
they don't deserve being heaped upon them, because they will be 
proving themselves to us that they aren't our friend and we 
shouldn't treat them that way.
    If they treat an American hero like that, we can no longer 
treat Mexico as our friend. I would hope in a very short time 
we can celebrate together with the people of Mexico, with you, 
and recement a friendship. But it will all depend on whether 
they do the right thing now. They will define themselves that 
way.
    We are defining ourselves. The President is defining 
himself. Shame on President Obama for not making a 30-second 
telephone call to the President of Mexico and getting this 
thing settled a long time ago. He is the Commander in Chief. 
That means he is personally the commander of people who 
volunteer to fight our wars. And if they don't think that he 
cares enough about them to make a phone call, they going to 
feel they are betrayed, and they are being betrayed.
    I would recommend, Mr. Chairman, I understand the President 
is in Washington today, that we not wait for the President and 
that we put a call, a conference call in to the President, or 
that today, within the next \1/2\ hour, we call the White House 
and personally request that each and every one of us go and see 
him to have a meeting to talk to him about this case.
    This has gone on long enough. We have a hero----
    Mr. Salmon. Mr. Rohrabacher, the chairman would like to----
    Mr. Royce. If the gentleman will yield, I will just relay 
that I, myself, as well as Mr. Matt Salmon, in meeting with the 
Vice President, relayed that request that the President do make 
that phone call. And I would suggest it is quite appropriate 
for other members here likewise to contact the White House and 
make that request.
    Mr. Rohrabacher. Well, I think we went to the second guy. 
Now it is time to go to the guy on top. And I would ask my 
colleagues to join us today in that telephone call.
    And, finally, let's just hope and pray, and our thoughts 
are with you. And this is a travesty that a brave hero has been 
treated like this. He did his duty, it is up to us to do our 
duty. The President of the United States is not doing his. So 
let's act on this.
    Thank you very much.
    Mr. Salmon. Thank you.
    I yield to the gentleman from Texas, Mr. Poe.
    Mr. Poe. Thank the chairman.
    Sergeant Tahmooressi, a Marine, he exemplifies exactly what 
I believe it was Ronald Reagan said about the Marines: There 
are two groups that understand the Marines, Marines and the 
enemy. And I think that is a true statement.
    This hearing to me is more than about the way America has 
handled the situation of your son, Jill. It is an example and a 
symptom of a bigger problem that our Marines and soldiers that 
have testified have talked about, the idea that the Government 
released five terrorists who killed Americans and are on the 
battlefield again doing the same thing. They are in Guantanamo. 
You have been to Guantanamo Bay prison. People need to see what 
it is like. It is no Mexican jail. It is a lot better than a 
Mexican jail. And we have learned about the Mexican 
incarceration system. As a former judge, I heard a lot about it 
at the courthouse.
    But a prisoner, a Marine being threatened and assaulted 
while incarcerated, that is wrong, no matter who he is, whether 
he is a Mexican national or American. But yet we know that has 
occurred, but still, 6 months later, there he is. And during 
that 6 months--and this is not about the President--but he has 
had the opportunity to make a couple of phone calls during that 
6 months. He called, on July 3, the United States men's soccer 
team congratulating them. June 20th, he congratulated the San 
Antonio Spurs' head coach for their victory. So he can make 
those congratulatory calls. Let's just make one more and make a 
statement to the Mexican President.
    I have sponsored, along with the chairman, a resolution, 
House Resolution 620, sponsored by 81 Members of Congress, 
Republicans and Democrats, that calls on the Mexican Government 
to release our sergeant. We hope that we could get this 
resolution adopted at least by action before we have to take a 
vote on it.
    And I think the comments about contacting the Mexican 
President, maybe that is something we ought to be doing. 
Whatever it takes, there is action. But that is one avenue we 
are going through legally to try to get something done.
    You have all been excellent witnesses. You don't hedge on 
anything. I wonder why there is no witness here from the State 
Department, why they are not here testifying what they are 
doing or not doing about the Marine that we have been talking 
about.
    Lieutenant Commander Williams, your comment, going back to 
about this is bigger, it is a symptom of other things, our 
veterans coming back, how they are treated, waiting in line to 
die at the Veterans Administration hospital. And I am not very 
IT savvy, but I have been getting constant tweets, I think they 
are called, from citizens in Texas complimenting you and 
demanding Congress do something about our Marine.
    There have been 37 young men and women from my 
congressional district in Texas killed in Iraq or Afghanistan, 
men and women from all races, all branches of the service. 
Their photographs are on my wall here in Washington, as with 
many other Members.
    We are not forgetting this Marine. We are not forgetting 
any of them, whether they were killed in action or whether they 
are wounded or whether they come back with the wounds of war, 
as you have talked about. The American public, I think, stands 
with our military, all of them, because, as it has been said, 
the worst casualty of war is to be forgotten. And we are not 
going to forget those that come back, and we are certainly not 
going to forget Sergeant Tahmooressi while he is in a Mexican 
jail. It is long past due to come back.
    And I think I am out of time, so I will yield back to the 
chairman. I have some questions, but I will ask you later. 
Thank you.
    Lt. Commander Williams. Mr. Chairman, could I please, sir, 
just make one comment. I will be brief.
    Mr. Salmon. Please.
    Lt. Commander Williams. Congressman Poe, I want to thank 
you, sir, for bringing up House Resolution 620. And as you 
pointed out, 81 Members of Congress, both sides, have signed on 
to this. But, unfortunately, we need to get this to the floor. 
It would send an incredible message today to the President of 
the United States if the House and Congress would go ahead and 
at least call a vote on this.
    And I should also say that what you stated, the American 
public knows about Sergeant Tahmooressi. But I don't understand 
what is going on, sir, at the political level. In the last 12 
days, two governors have sat down and had conversations, one 
from each side, with President Penna Nieto, and neither one of 
them has raised this question. And we asked them both to do so.
    I was in a meeting yesterday with an individual who is a 
grand funder of a lot of the campaigns going on across this 
country right now. And he sat with President Nieto 3 days ago, 
4 days ago. And I was in his office yesterday. And I said, why 
didn't you tell me that, because I would have called you and 
asked you to do so.
    But here is what is unfortunate that we are holding this 
hearing today: Most of the American public has some weird idea 
that he must have done something wrong, that is why you are not 
backing him. And one of the points that has to be made, when 
you talked about the fact that he made a wrong turn and you 
followed this, that wrong turn, what people have to understand 
is that submitted as evidence in the Mexican court right now is 
the video of Sergeant Tahmooressi pulling up to the checkpoint. 
And in that checkpoint, they gave him a green light. He could 
have entered the country, buried his guns, come back, figured 
out a way to get one back every week.
    He put his hands up and said, hey, I made a mistake. Now, 
that right there is clear enough for anybody in America who has 
to understand this is not us trying to get--for some reason, 
there are some people who claim that he had to have done 
something wrong--this is not us trying to get a soldier who has 
done something wrong back. This is trying to get a soldier 
back.
    Sorry, sir.
    Mr. Salmon. Thank you.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Marino.
    Mr. Marino. Thank you, Chairman.
    I want to thank you all for being here.
    Mrs. Tahmooressi, to you and to your family, from my 
family, we pray for Andrew daily.
    And, Chairman, I ask unanimous consent to enter into the 
record a letter that I wrote that I dated July 10 of 2014 to 
the Ambassador of Mexico to the United States of America 
respectfully asking for the immediate release of Sergeant 
Tahmooressi. Could I have this letter unanimously entered into 
the record?
    Mr. Salmon. Without objection, so ordered.
    Mr. Marino. Thank you.
    I did not receive a response.
    Again, ma'am, my staff and I will assist the chairman in 
any way needed or any way in which he requests to continue to 
work on the release of your son. As Lieutenant Commander 
Williams said, you and your son and veterans deserve more, have 
a right to more. And we need to see that that is accomplished.
    I apologize for how inappropriately you have been treated, 
and I apologize for the inappropriate level of concern by the 
White House. I am truly disappointed in that. The President 
said on numerous occasions he has a pen and a phone, he can do 
what he wants.
    So at this time, Mr. President, I am asking you to use your 
pen and your phone that you so continually tell the American 
people that you are going to use.
    I am disappointed that you have to be here today, ma'am. I 
am disappointed that vets have not received the appropriate 
care that they should be receiving in this country. And the 
President needs to step up and show you the proper attention.
    Our allies, the Mexican Government, also need to do what is 
right and need to do it immediately.
    And again my respect. I yield back.
    Mr. Salmon. I thank the gentleman.
    The other gentleman from Texas, Mr. Stockman, is 
recognized.
    Mr. Stockman. Thank you, Mr. Chairman.
    I appreciate Congressman Matt Salmon and his efforts 
throughout all this.
    In a tangent a little bit, I have to say, if your son is a 
gunrunner, he is one of the worst ones I have ever seen. I 
mean, to openly admit and raise his hands. Furthermore, I don't 
think he brought enough to make any money. I mean, it is just 
so bizarre that this whole thing is upside down, that what is 
good is bad and bad is good in this nation.
    He is unbelievably over there. And I actually sat with the 
Consul General from Mexico right after he was taken. I gave him 
a stack of papers on your son. And I said, look, I said, this 
is going to grow into something really bad for both our 
countries if you continue to hold our hero. I go, this isn't 
going to end up well for either of our nations. Please show 
compassion. I said, you show compassion, you are going to hit 
the park.
    We, all the time in Texas, we have them come across our 
border accidentally and we turn them around. In fact, they were 
shooting .50-caliber machine guns at us and we let them go back 
in.
    This lack of friendship by our ally, supposedly, is so 
disturbing, and I for one am puzzled by it. And I would hope 
this committee in future hearings reconsiders the amount of 
money we are sending down there. I don't think we should keep 
investing in friends. If we have friends like this, we really 
don't need enemies.
    And I know we shouldn't get into bashing them, but I am 
really frustrated because I see the lack of compassion on their 
side. And I see compassion on our side. And we just want 
balance. That is all we ask for.
    And there are some other people that haven't been announced 
that have come up on the Hill on your behalf. William 
Chatfield, who is a Marine, came up here and lobbied--I don't 
want to use the word ``lobbied,'' but spoke on your son's 
behalf; Larry Ward from Special Operations Speaks has been up 
here; Sam Bushman, who is a great guy, he has been up here with 
his organization lobbying on your behalf. And then in my 
office, Printus LeBlanc, who is a Marine, has been pushing very 
hard, and Anna Marie Hoffman, who has been pushing.
    Some of the things I want to just, I don't know, we are 
trying to struggle and do something, but it feels like we are 
pushing against Jello sometimes. Every time we push, 
Congressman Ted Poe's thing, we thought that is going to be the 
answer and it seems to fall on deaf ears. We talk to the 
President's people, it falls on deaf ears. This hearing seems 
to be falling on deaf ears. We have nobody from the State 
Department here. We have nobody here that should be here.
    I mean, you are here. That is great. But there should be 
other people here that can pull strings that should be in this 
hearing, hearing this powerful testimony, and they are not 
here. And that is disappointing to me personally, because I 
think in the long run this will do damage to Congress too that 
we haven't taken up. And it will do damage, I think, to the 
institution of the Presidency that there is so much silence. 
The silence is deafening. These are our heroes from every 
standpoint, and we continue to be silent, and it is very 
disturbing.
    I guess I would just ask is there any more we can do to--
besides calling the President--but is there anything we can do 
outside of what we are doing right now that would move the 
process forward?
    Mrs. Tahmooressi. Thank you. I mean, just simply, I would 
like to see more than 81 signatures on the House Resolution 
620. So if you could reach out to all your colleagues. Because 
I believe Mexico would find that profoundly intimidating, 
maybe, if there was more than 81 signatures on that House 
Resolution 620.
    But thank you for all of your efforts, and thank you so 
much for coming in out of session to hear about Andrew's fight 
for freedom and the plight of our veterans in America. Thank 
you.
    Mr. Salmon. Thank you. The Chair recognizes the former 
veteran and Congressman from Florida, and a dear friend, 
Congressman DeSantis.
    Mr. DeSantis. Mr. Chairman, thank you for holding this 
hearing.
    Sergeant Tahmooressi is an American hero who fought for us 
with honor and distinction in accordance with the finest 
traditions of the United States Marine Corps, and yet he finds 
himself languishing in a Mexican prison for 6 months. His 
imprisonment is unjust, and the length of his detention is a 
national disgrace.
    I think the witnesses here have been phenomenal. I am only 
a first-term Member, but I have sat through a lot of 
congressional hearings, and I really want to applaud you, 
because I think you all have brought tremendous insight into 
this issue. And I think it will help educate the American 
people about Andrew's plight.
    But it is inexplicable to me that this is even necessary to 
have this. This should have been resolved long ago. And people 
have mentioned that we would like to see action from the White 
House.
    It is interesting, if you look, 22 USC 1732, this is the 
law of the land right now, states,

        ``Whenever it is made known to the President that any 
        citizen of the United States has been unjustly deprived 
        of his liberty by or under the authority of any foreign 
        government, it shall be the duty of the President 
        forthwith to demand of that government the reason of 
        such imprisonment; and if it appears to be wrongful and 
        in violation of the rights of American citizenship, the 
        President shall forthwith demand the release of such 
        citizen. If the release so demanded is unreasonably 
        delayed or refused, the President shall use such means, 
        not amounting to acts of war, not otherwise prohibited 
        by law, as he may think necessary and proper to obtain 
        or effectuate the release; and all the facts and 
        proceedings relative thereto shall as soon as 
        practicable be communicated by the President to 
        Congress.''

    I am not aware of the President taking any action so far to 
bring our Marine back. And I don't think we have received any 
information in Congress about actions that have been taken.
    So I would say, Mr. President, we have a man down. Pick up 
the phone and do your job on behalf of our Marine. And I think 
it could be solved very quickly with that.
    But I do think, even though it is the President's duty, and 
I think that falls on him, we do need to speak in Congress, and 
not just in a hearing, not just in press releases, but in 
actual votes.
    And so that means, absolutely, we call up House Resolution 
620 and we vote it out of the House of Representatives. It 
means, I believe, to say to Mexico, we send you hundreds of 
millions of dollars in foreign assistance. That money stops 
until our Marine is brought back to the United States. We need 
to stop talking in this town and start acting.
    So I am very glad that you called this hearing. I would 
like to see more action. And I think that there are a lot of 
other things that the President could do; obviously, pick up 
the phone. We have a lot of leverage we can use on Mexico to 
secure our Marine's release, and this needs to happen as 
expeditiously as possible. And I yield back.
    Mr. Salmon. I would like to just say for the record that 
when we go back into session, if our man is not back home, we 
will be moving that bill. And we will be moving it out of the 
subcommittee, and I will have every intention to work with 
leadership to get it expedited on the floor as quickly as 
possible.
    I do have a sneaking suspicion and a very optimistic view 
that good things are going to happen very, very soon. And, 
Congressman from Florida, I know we have all heard that before. 
But I have reason to believe that maybe some optimism might be 
in vogue right now.
    I recognize the gentleman from Florida, Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman. And I want to thank you, 
Chairman Royce, Mr. Hunter, for going and doing what you have 
done, the stellar work you have done.
    I want to thank you all for showing up and doing, again, I 
agree with everybody up here that you guys have done a great 
job.
    And, Mrs. Tahmooressi, the story you are telling 
exemplifies only the love and concern a mother or a parent can 
have for a child. And the things that you have shared with us 
are great. I mean, I am reading this here, you know, it says, 
Mom, I did this; Mom, I scheduled my solo flight. And you went 
through this whole list. And the last one, I can't read because 
it is too disturbing.
    But to hear the excitement of our kids--Mom or Dad, I did 
this--and then to have this turn out, to me it is just 
unconscionable that we have gotten to this point.
    And I think of everything that we have gone through in this 
country with our relationship with Mexico, and it has been 
brought up. They get $300 million a year in foreign aid. They 
are a neighbor, they are a friend, they are a trading partner, 
they are an ally. They don't send their young to defend freedom 
around this globe as we do.
    Again, the story you are telling, it is interesting how you 
brought out the paths and turns that we make in life often lead 
us in the wrong direction. But how many of us have made a wrong 
turn that have had this kind of consequence in our life? Not 
many of us, especially as rapidly as it has for your son and 
monumental for a wrong turn.
    And I see a young man that went down there who made a wrong 
turn, realized he made a wrong turn, goes to the security 
guards and says, hey, listen, I made a wrong turn. I want to go 
back to America. And, oh, by the way, I have three guns. I am 
telling you what I did.
    Now, as it was brought up, if you were doing that to 
smuggle them in there, you wouldn't say that. So obviously, it 
was a mistake, it was a wrong turn. They need to let him go.
    And for our President not to stand up to demand his 
release, yet he negotiated and released--and I feel illegally--
five of the all-star players on the Taliban team for one our 
Marines. And I am always happy to get one of our soldiers home. 
But if we can do that, and he can do that, he can do this and 
just ask for him to be returned. We don't want to make an 
international incident out of this. We just want our Marine 
home, we want your son, your comrade home. We want him home.
    And I guess I just want to say, I, as a U.S. Congressman, I 
apologize to the President of Mexico that our Marine, one of 
our citizens, came into your country and made a wrong turn. And 
he admitted that. And I apologize he made a mistake. And I hope 
you find in your heart the ability to forgive him and release 
him so that we can put this to an end and he can get on with 
his life and with his treatment.
    And I just want to thank all of you that have served. We 
are well aware of the 22 suicides that happen every day in this 
country. And we need to get him back and get him treated.
    And I thought it was also interesting that President Obama, 
with Sergeant Bergdahl, stated that it was a medical emergency, 
it was a risk to his life, that we bring this young man home. 
And if that was true then, it is true now. And I urge this 
President to pick up the phone and use his pen and bring this 
man home.
    And with that, I am going to yield back. We are with you. 
We will do whatever we can. And God bless you all.
    Mr. Salmon. Thank you.
    I recognize the gentleman from California, who is also a 
former veteran, also worked tirelessly on behalf of Sergeant 
Tahmooressi, a great guy and a good colleague, Duncan Hunter.
    Mr. Hunter. Thank you, Mr. Chairman. Thanks very much for 
holding this.
    And thank you, everybody, for coming out.
    Number one, we don't call it the Marine Corps, we call it 
America's Marine Corps. Sergeant Tahmooressi is a son of 
America. He is a Marine who fought for every single person. 
When we have Marine Generals testify, they say it is your 
Marine Corps, it is America's Marine Corps, and that is how we 
should be looking at this case.
    Frankly, I am tired of the lip service, of the thanks for 
your service, while I watch the President give speeches in 
front of our men and women in uniform so that he can look sexy 
on television. Because it is just lip service. He doesn't care. 
Secretary Kerry does not care. And the State Department, for 
all the little things that they have done for you, they have 
not gone out of their way. In fact, the first lawyer that you 
got was off of their Web site that they vetted. They do not 
care. But people in this room care.
    I would say too that when a parent gives their son or 
daughter up and entrusts their lives to the U.S. military, to 
the United States Marine Corps, you gave your son up for your 
country, and he did it willingly and proudly. And I look at 
those pictures popping up. He is a stud. He is a young killer 
of bad people. And that is why he joined, to go serve his 
country.
    And to see him now and what they have reduced him to in 
Mexico and to read that excerpt that you said he told you where 
he was tied spread eagle and beaten and threatened with rape, 
that is appalling. This isn't Yemen, this isn't Somalia. This 
is supposed to be one of our number one neighbors, Mexico.
    But I would advise everybody, we don't allow our Marines at 
Camp Pendleton, where I was stationed, we don't allow them to 
go to Mexico. The sailors in San Diego, not allowed to go to 
Mexico. Mexico is more than Rosarito, Cozumel, Ensenada. In 
Mexico, they make $5 a day. That is their new minimum wage. It 
is not a First World country. There is a reason we don't allow 
our Marines and sailors to go to Mexico from San Diego. They 
don't get leave shifts there at Camp Pendleton. They are not 
allowed to do it.
    Andrew does not just deserve this, and he doesn't have a 
right to this, to this hearing and to this attention, he has 
earned it, along with about 1 percent of the U.S. population 
who has served in the military, and an even smaller slice of 
that has served in combat situations. He has earned this 
attention here today. He has earned this Congress coming 
together and this committee holding this. This is what we are 
here for. This is why we are in Congress. This is why we run 
for Congress and win, is to represent people like him so we can 
go fight for him when people like our own President won't.
    And I will tell you what. I am tired of hearing about the 
President making a phone call. What kind of a low bar do we 
have we set for this President, we ask him to make a phone 
call? He ought to get his tail down and play some of those 
Mexican golf courses and get him out of jail in person. That is 
a low bar to set for the Commander in Chief, a Commander in 
Chief that should go to hell and back for one of their men or 
women who has been left behind, as has been stated.
    I have a question for the panel. Would you allow your 
Marines or soldiers to go to Mexico today?
    Mr. Hegseth?
    Mr. Hegseth. No, Congressman.
    Mr. Hunter. Sergeant?
    Sergeant Buchanan. Negative, Congressman.
    Mr. Hunter. Commander?
    Lt. Commander Williams. No, sir.
    Mr. Hunter. Jill, would you allow your son or any of your 
friends or their kids, to go to Mexico?
    Mrs. Tahmooressi. It is too dangerous. No, I wouldn't.
    Mr. Hunter. In 2011, when Afghanistan was raging, you had 
nine times more likely of a chance to be killed in Mexico than 
to be killed in Afghanistan--nine times. Afghanistan was safer 
than Mexico. This does not sound like a good neighbor. It 
doesn't sound like a neighbor that makes our Ford trucks and 
does deals with all of our big American corporations so that 
they can have $5-a-day labor in Mexico.
    Mexico stole Andrew's chance at a quick recovery. And I 
think that Montel hit that right on the head. They stole his 
chance at a quick recovery. By getting rid of this case and 
acquitting him or throwing this case out now, today, or this 
week, or sometime soon, they at least set him on a slow, uphill 
path to be being healed.
    And I will tell you, Montel, you are dead on. This is much 
worse than Afghanistan. He would probably want to go serve two 
or three tours in the most horrible, dirtiest, grittiest combat 
place on Earth than sit in a Third World country jail.
    So thank you all for what you are doing.
    Thank you, Mr. Chairman, for doing this. And God help us if 
we can't get one of our own back out of the clutches of a not-
so-great government like Mexico.
    Mr. Salmon. Thank you.
    I recognize the gentleman from Florida, Mr. Jolly.
    Mr. Jolly. Thank you, Mr. Chairman.
    To the panelists, thank each of you for your service.
    I want to associate myself with comments of my colleagues, 
particularly Mr. Hunter. We are elected to work, we are elected 
to actually get things done, as Members of Congress and the 
President is as well.
    Every member of this panel, every Member of this body at 
some point has probably run against the dysfunction of 
Washington. And when we are elected, we don't have the luxury 
of resigning ourselves to that dysfunction. We have a 
responsibility to work. That means holding hearings like this, 
and that means actually putting your name on important pieces 
of legislation like House Resolution 620.
    The issue clearly is leadership. The facts are as clear as 
they can be. We have established today that we have to get 
Andrew home, that the President has not done enough. But also, 
importantly, as Mr. Hegseth said, that PTS is real. We have 
talked about getting Andrew home, but we have also talked about 
a very important condition, and that is PTS.
    My question for Mrs. Tahmooressi is, can you walk us 
through very briefly, because I will have a couple other 
questions, as a mom, what you noticed in Andrew as PTS began to 
progress with him?
    Mrs. Tahmooressi. Thank you.
    He got out of active duty October 2012 and pretty much 
immediately enrolled in Embry-Riddle. He was accepted in 
January. That probably wasn't the wisest thing to do, because 
it is hard to acclimate from the battlefield into a college 
environment, especially when you have a difficult time relating 
to your peer group now.
    So I think it began just having a difficult time relating 
to the peer group. He would see a classroom full of people his 
age, but they were disrespectful, they got up and left. And as 
a Marine, you definitely bow down to authority.
    So he started getting aggravated, frustrated. He was having 
flashbacks, really difficult time sleeping. So he would wake up 
screaming. And we would hear him wake up screaming.
    So a lot of restless nights, agitation. And also suspicion. 
As the year progressed in 2013, he did have a hypervigilance to 
self-defense. He still had what I call a hunter-prey syndrome. 
I don't know if that is really a legitimate word. But to me, he 
was always hypervigilant.
    And 2013 is when he purchased his concealed weapon. So he 
had the shotgun in 2007 when he went to Alaska, but then he 
felt the need to have himself armed with the handgun. And being 
a Marine, he carried a rifle for those 4 years. And he was 
responsible for the biggest gun on the battlefield, a .50 
caliber.
    So when he made his second purchase in 2013, which was his 
third firearm, the rifle, that also kind of made sense to us. I 
mean, we knew that that was his tool of the trade, that is what 
kept him alive for 4 years.
    Mr. Jolly. Let me pause just a second because of time. I 
want to be respectful of time.
    We know we have a wait list. I have had a conversation with 
a mother like you referred to, Mr. Hegseth, somebody awaiting 
treatment within the VA, and then committed suicide while on 
the wait list. What do we need to do more.
    Mr. Hegseth. As the Congressman said, delayed care is 
denied care. We hear all the time from the VA, well, it is 
great when you get in. If you can't get in, you don't get the 
treatment that you need.
    We have to cut through the bureaucracy. We have to hold 
leaders accountable for their performance. We need to provide 
transparency. And we need to give a veteran a choice. If they 
can't be seen in a timely manner from a VA facility, why can't 
they go to a private facility to get that care?
    Mr. Jolly. Put a choice card in the hand of every veteran 
and let them control their health care. That is the answer to 
shattering the failure of the VA bureaucracy right now.
    Mr. Hegseth. Introduce a little competition.
    Mr. Jolly. You are right.
    I have got a question, one last question. Mr. Williams, you 
made an extremely powerful statement in your opening statement 
today, that you couldn't counsel your son to put on the uniform 
and carry the flag of our Nation. That appears to be a failure 
in leadership, probably systemic, perhaps in this body as well 
as the administration.
    My question for you is, what do you need to see change to 
find yourself in a position to say yes to your son, to say it 
is okay to put on the uniform and carry the flag?
    Lt. Commander Williams. I believe this body knows that over 
the course of the last 4 or 5 months I have been extremely 
vocal, and I am not going to let up. I gave the President and 
this last bill the 90 days that was requested to make a change. 
So I am keeping my mouth shut for about another 35 days.
    But at the end of 35 days, believe me, I am not going to 
stop, because all the claims that were made in this bill that 
was passed, so far I don't believe these things are being 
implemented. Just the idea that the fact that our soldiers were 
supposed to have the right to go and visit outside hospitals 
and get assistance if they couldn't get it, that is not 
happening as quickly as we think.
    And one of the things, giving a card to say go see a 
civilian, each one of these soldiers has said this, and they 
will say it over and over again: We need to be with our 
brothers. The simplest thing that this body could do and 
Congress could do is authorize our veterans to go to DoD 
facilities. Augment those facilities to see those troops. This 
is where we grew up being treated. Why should we not be treated 
by the same people right now? End the backlog immediately.
    Mr. Jolly. Well, the card is intended to empower the 
individual to stay in the VA, go to DoD, stay with their guys 
if they want to. But if they need immediate assistance 
elsewhere and they want to go there, put the individual in 
charge of their own health care. Let them control their own 
healthcare.
    Thank you. I yield beck. Thank you, Mr. Chairman.
    Mr. Salmon. I thank the gentleman.
    This hearing has been a fantastic hearing.
    Jill, I know that not so long ago, just a few short hours 
ago, you were actually in Mexico, sitting outside the 
courtroom, as ordered by the judge, to support your son. And 
now here you are across the country here in Washington, DC, as 
a tireless advocate and a wonderful example of what an American 
mother is all about. So thank you. God bless you.
    And all of you panel members, your service is truly 
humbling.
    And I think that the consensus of this panel discussion, 
which focuses on a brave soldier who gave his country his 
everything, it is a lot broader. It is about, do we stand for 
those who stand for us or not? Do we stand for them?
    And, Mr. Jolly, you made reference to the Veterans 
Administration. So we chuck $17 billion at them and we do this, 
and pat ourselves on the back like we have really done 
something stupendous. Well, I will tell you something, in the 
last 60 days the calls haven't stopped, not in any office, not 
with my caseworkers. And I don't see anything changing, and I 
don't see anything better. And I am dubious that it will get 
better until major changes happen, until there is a major 
mindset change within our country that we really do care about 
those that care about us, that we send into harm's way.
    This is a case of a young man who served our country 
proudly who is suffering from PTSD, who is now languishing in a 
Mexican prison. I implore the President to do what a Commander 
in Chief should do, and that is use everything that he has got 
to get this young man home. I implore the Government of Mexico 
to do the right thing.
    Laws are there for two things, to provide safety for its 
citizenry, but also to enact justice. We know what justice 
would be. Justice in this case would be to have this young man 
home, being treated for PTSD. That is justice. That is 
compassion, but that is justice.
    I thank everybody for being here at the hearing. I thank 
you for taking the time. I thank the members for coming across 
the country.
    Tulsi, I think you win the award for coming the furthest, 
from Hawaii.
    But this hearing is concluded. And God bless.
    [Whereupon, at 12:06 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

<F-dash>\<Register><pound>s<ellipse>\<box><star>t<careof><Rx><box><Rx> 
                     <Hoarfrost><F-dash><Register>\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

<F-dash>\<Register><pound>s<ellipse>\<box><star>t<careof><Rx><box><Rx> 
                     <F-dash><func.-of><Register>\

Material submitted for the record by the Honorable Ileana Ros-Lehtinen, 
         a Representative in Congress from the State of Florida
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 <F-dash>\\a<natural><careof><Rx><pound> <F-dash><func.-of><Register>\

   Material submitted for the record by the Honorable Tom Marino, a 
    Representative in Congress from the Commonwealth of Pennsylvania
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

<F-dash>\<ls-thn-eq>a<natural><bullet>as <Hoarfrost><F-dash><Register>\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
